TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Repeated Efforts to Modernize Paper Tax
                 Return Processing Have Been Unsuccessful;
                     However, Actions Can Be Taken to
                        Increase Electronic Filing and
                          Reduce Processing Costs



                                      September 10, 2009

                              Reference Number: 2009-40-130




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 10, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Repeated Efforts to Modernize Paper Tax Return
                             Processing Have Been Unsuccessful; However, Actions Can Be Taken
                             to Increase Electronic Filing and Reduce Processing Costs
                             (Audit # 200940010)

 This report presents the results of our review to assess the Internal Revenue Service’s (IRS)
 strategy to convert paper-filed individual income tax returns into an electronic format. This audit
 was included as part of our Fiscal Year 2009 Annual Audit Plan under the major management
 challenge of Modernization of the IRS.

 Impact on the Taxpayer
 In Calendar Year 2008, the IRS received 156.3 million individual income tax returns, of which
 66.4 million (42.5 percent) were paper-filed. The IRS has devoted significant resources to
 identify ways it could modernize its method for processing paper tax returns but has had no
 success. Actions can be taken including mandating electronic filing (e-filing) for paid preparers
 and developing processes to convert paper returns into an electronic format which would
 significantly reduce paper filings, processing costs, and error rates, with the added benefit of
 faster tax refunds and more accurate tax returns for taxpayers.

 Synopsis
 The IRS continues to receive large numbers of paper-filed individual income tax returns despite
 a continued growth in e-filing. Processing of paper-filed tax returns costs the IRS approximately
 $190.6 million. Error rates are considerably higher for paper-filed tax returns. Many errors are
 due to IRS employee keypunch errors when inputting information from the paper tax returns into
                     Repeated Efforts to Modernize Paper Tax Return Processing
                     Have Been Unsuccessful; However, Actions Can Be Taken to
                       Increase Electronic Filing and Reduce Processing Costs


IRS computers. In contrast, e-filed tax returns are sent through a number of validations before
the IRS accepts them. Unlike a paper tax return, an e-filed tax return is not accepted until the
                                                 validity check confirms the tax return is free of
                                                 errors. Once notified of an error, the taxpayer or
     Because the IRS has not been able to        preparer has to correct the tax return and
     implement a modernized submission
    processing system to convert paper tax
                                                 resubmit it through e-filing or by paper. In some
   returns into an electronic format, it has to  instances, rejected returns are not resubmitted.
    continue to use a labor intensive, costly,
           and error-prone system.
                                                Repeated efforts have been initiated to modernize
                                                paper tax return processing with no success.
                                                Significant resources have been expended on
                                                developing modernization concepts. Since at
least as far back as 1988, the IRS has attempted to develop a system to replace its current paper
tax return processing. However, these efforts have resulted in little more than conceptual
visions.
While the IRS has not been able to move beyond the conceptual stage for modernizing paper
processing, there are actions that would reduce paper filings and/or convert paper tax returns into
an electronic format. These options could result in a significant increase in e-filing as well as
significant processing cost savings to the IRS. The options are:
    •    Mandate e-filing for paid preparers (this option would require a change in the law). The
         majority of paid preparers are already familiar with operating in an electronic
         environment. Most paid preparers who filed paper tax returns1 actually used an electronic
         tax software preparation package and 70 percent also e-filed at least 1 tax return, which
         indicates a familiarity with the electronic preparation and e-filing process.
    •    Convert residual paper returns into an electronic format. Updating the Modernized
         Submission Processing concept to include pursuing successful processes followed by
         States that use scanning technology could provide the IRS with an option to convert
         paper-filed tax returns into an electronic format, thereby reducing processing costs
         associated with paper-filed tax returns.
Implementation of these 2 options could result in a 26.9 percent increase in e-filing, with cost
savings of $66.6 million annually ($333 million over 5 years), and provide the ability to convert
13.2 million paper tax returns into an electronic format.




1
 For the purpose of this report, we defined paid preparers as those that included a preparer Social Security Number,
Preparer Tax Identification Number, or Employer Identification Number and prepared six or more tax returns. It
excluded returns prepared by volunteer preparers.
                                                                                                                   2
                  Repeated Efforts to Modernize Paper Tax Return Processing
                  Have Been Unsuccessful; However, Actions Can Be Taken to
                    Increase Electronic Filing and Reduce Processing Costs



Recommendations
We recommended that the Commissioner, Wage and Investment Division, pursue implementing
successful processes followed by States that use scanning technology (Optical Character
Recognition and Two-Dimensional Bar Codes) to convert paper-filed tax returns prepared by
individuals using a tax preparation software package into an electronic format.

Legislative Recommendation
Consider mandating e-filing for all paid preparers.

Response
IRS management agreed with the two recommendations. The Wage and Investment Division
will pursue the implementation of processes that use scanning technology (Optical Character
Recognition and Two-Dimensional Bar Codes). Two-Dimensional Bar Codes will be a project
proposal for the 2012 Modernization Vision and Strategy planning cycle. In the meantime, a
new proposal will be submitted to enhance legacy systems with Two-Dimensional Bar Code
capabilities. The legislative recommendation is currently under consideration by the Department
of the Treasury and included in the President’s Fiscal Year 2010 budget request. Management’s
complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                              3
                        Repeated Efforts to Modernize Paper Tax Return Processing
                        Have Been Unsuccessful; However, Actions Can Be Taken to
                          Increase Electronic Filing and Reduce Processing Costs




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Repeated Efforts Have Been Initiated to Modernize
          Paper Submission Processing With No Success...........................................Page 5
          Actions Are Needed to Reduce Paper-Filed Tax Returns and/or
          Convert Paper Tax Returns to an Electronic Format ....................................Page 7
                    Recommendation 1:........................................................Page 12

                    Recommendation 2:........................................................Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – Outcome Measure ................................................................Page 21
          Appendix V – Management’s Response to the Draft Report .......................Page 22
                 Repeated Efforts to Modernize Paper Tax Return Processing
                 Have Been Unsuccessful; However, Actions Can Be Taken to
                   Increase Electronic Filing and Reduce Processing Costs




                               Abbreviations

e-file(d); e-filing       Electronically file(d); electronic filing
ETAAC                      Electronic Tax Administration Advisory Committee
FY                         Fiscal Year
IRS                       Internal Revenue Service
2-D Barcode               Two-Dimensional Bar Code
                     Repeated Efforts to Modernize Paper Tax Return Processing
                     Have Been Unsuccessful; However, Actions Can Be Taken to
                       Increase Electronic Filing and Reduce Processing Costs




                                            Background

The Internal Revenue Service (IRS) continues to receive large numbers of paper-filed individual
income tax returns despite a continued growth in electronic filing (e-file). In Calendar
Year 2008, the IRS received 156.3 million individual
income tax returns of which 66.4 million
                                                          Paper-filed individual tax returns
(42.5 percent) were paper-filed. As of May 1, 2009,       accounted for 42.5 percent of tax
the IRS had received 40.6 million paper-filed tax            returns received in Calendar
returns, representing 30.9 percent of the                  Year 2008. Processing of these
131.6 million individual income tax returns received.    returns cost the IRS approximately
The IRS recognizes that even though it is getting                    $190.6 million.
                                             1
closer to meeting its 80 percent e-file goal,
paper-filed tax returns will continue to present a
challenge in the foreseeable future. Figure 1
provides IRS projections on the volume of individual paper-filed tax returns for Calendar
Years 2010 through 2015.
              Figure 1: Projected Filing Volumes of Individual Tax Returns
                                  (as of October 2008)

                                                                                 Number of
                                           Number of            E-File           Paper-Filed       Paper-Filed
     Year          Total Returns         E-File Returns       Percentage          Returns          Percentage
     2010           140,903,300            98,310,400             70%            42,592,900             30%
     2011           141,565,500           103,357,600             73%            38,207,900             27%
     2012           143,096,300           106,771,700             75%            36,324,600             25%
     2013           144,218,200           109,552,500             76%            34,665,700             24%
     2014           144,921,000           112,223,300             77%            32,697,700             23%
    2015           145,599,200         114,486,800              79%            31,112,400        21%
                                                                                         2
Source: IRS’ 2008 Calendar Year Return Projections for the United States and IRS Campuses (Document 6186).




1
  The IRS Restructuring and Reform Act of 1998 required that paperless filing should be the preferred and most
convenient means of filing Federal tax and information returns. It should be the goal of the IRS to have at least
80 percent of all returns filed electronically.
2
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                           Page 1
                      Repeated Efforts to Modernize Paper Tax Return Processing
                      Have Been Unsuccessful; However, Actions Can Be Taken to
                        Increase Electronic Filing and Reduce Processing Costs



E-filing provides processing and error resolution savings
E-filed tax returns provide the IRS with significant processing cost savings and low error rates:
    •    IRS processing costs: $0.35 for an e-filed tax return versus $2.87 for a paper-filed tax
         return.3
    •    Error rates:4 historically, less than 2.5 percent for e-filed tax returns versus more than
         25 percent for paper-filed returns.5
Error rates are considerably higher for paper-filed tax returns largely because of IRS employee
keypunch errors when inputting information from the paper tax returns into IRS computers. In
contrast, e-filed tax returns are sent through a number of validations which check for more than
600 possible errors before the IRS accepts the tax return. E-filed tax returns that do not pass the
validation checks are rejected and sent back to the taxpayer or preparer for correction. For
example, validity checks are performed on the taxpayer name, address, Social Security Number,
and year of birth. Errors include incorrect Social Security Numbers of dependents, incorrect
birthdates, numbers in an alphabetic field, and invalid zip codes. Unlike a paper tax return, an
e-filed return is not accepted as filed until the validity checks confirm the tax return is free of
these types of errors. Once notified of an error, the customer has to correct the tax return and
resubmit it through e-file or by paper tax return. In some instances, rejected returns are not
resubmitted.

Taxpayers benefit when e-filing
Taxpayer e-file benefits include:
    •    Faster refunds. With e-file, taxpayers receive refunds in one-half the time it takes to file
         a paper tax return and receive a refund check. Taxpayers who choose Direct Deposit can
         receive their refund in as few as 10 days.
    •    More accurate returns. In addition to the error checks built into return preparation
         software, additional checks are performed during acceptance processing of e-file returns.
         These additional checks reduce the chance of receiving an error letter from the IRS.
    •    Electronic confirmations. Taxpayers are notified electronically that their returns have
         been received.




3
  Advancing E-file Study Phase 1 Report, dated August 14, 2008.
4
  The error rate is the percentage of returns that are identified by the Error Resolution System with a transcription,
math, or other error.
5
  IRS’ Miscellaneous Monitoring Reports.
                                                                                                                Page 2
                     Repeated Efforts to Modernize Paper Tax Return Processing
                     Have Been Unsuccessful; However, Actions Can Be Taken to
                       Increase Electronic Filing and Reduce Processing Costs



    •    File now, pay later payment options. Taxpayers can file early and pay later by
         scheduling an electronic funds withdrawal to be debited on or before April 15th.
         Taxpayers can also pay by credit or debit card when they e-file their returns.6
    •    Convenient Federal/State e-filing. Taxpayers in 37 states and the District of Columbia
         can e-file their Federal and State tax returns in 1 transmission to the IRS. The IRS
         forwards the State data to the appropriate State tax agency.
Taxpayers can also receive no-cost e-filing by using the IRS’ Free File program. The Free File
program is a free Federal online tax preparation and e-filing program for eligible taxpayers
developed through a partnership between the IRS and the Free File Alliance, LLC, a group of
private-sector tax preparation companies. The program enables eligible taxpayers to use
commercial tax software for free. Taxpayers with adjusted gross incomes up to $56,000 can use
the standard Free File options in Calendar Year 2009—that is approximately 98 million United
States taxpayers.
In addition, there is an option that opens up the Free File program to nearly everyone, even those
with incomes exceeding $56,000. This option is Free File Fillable Forms. These Fillable Forms
allow taxpayers to fill out their tax forms and e-file them with the IRS at no cost. These forms
are only available through the Free File program link on IRS.gov (the public IRS Internet web
site). This option does not include the step-by-step question and probe process, but it does allow
taxpayers to enter their tax data, perform basic math calculations, sign their tax returns
electronically, print their returns for recordkeeping, and e-file their returns. This option may be
right for those who are familiar with the tax law, know what forms they want to use, and do not
need assistance.

The IRS initiated an Advancing E-File Study in an effort to meet the e-file goal set
by Congress
The goal of the IRS’ Advancing E-file Study is to help the IRS validate and launch future
studies, research, and other activities to meet the goal of an 80 percent e-file rate set by Congress.
Specifically, the IRS initiated a major effort to collect, synthesize, and analyze all substantial
data on the IRS e-file program in one document called the Advancing E-file Study Phase 1
Report, dated August 14, 2008. The report includes the program’s history, stakeholders,
taxpayer and preparer behaviors, related programs and efforts, and options for expansion. The
Phase 1 report does not include recommendations on selecting or implementing specific options
for advancing e-file, but lays the foundation for doing so in future phases.
Phase 2 of the Advancing E-file Study is underway and was planned for completion in
spring/summer 2009; however, it has been pushed back until the fall of 2009. Phase 2 will

6
 For credit and debit card transactions, there is a fee charged by the service providers. Fees are based on the
amount of the payment and may vary by service provider.
                                                                                                              Page 3
                  Repeated Efforts to Modernize Paper Tax Return Processing
                  Have Been Unsuccessful; However, Actions Can Be Taken to
                    Increase Electronic Filing and Reduce Processing Costs



include a cost/benefit analysis of the options to increase e-file based on original research of
taxpayer and preparer motivators and analysis of the business and engineering/costing studies of
those options.
This review was performed at the Wage and Investment Division Submission Processing
function offices in Lanham, Maryland, and the Austin Submission Processing Site in
Austin, Texas, during the period December 2008 through May 2009. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 4
                 Repeated Efforts to Modernize Paper Tax Return Processing
                 Have Been Unsuccessful; However, Actions Can Be Taken to
                   Increase Electronic Filing and Reduce Processing Costs




                                Results of Review

Repeated Efforts Have Been Initiated to Modernize Paper Submission
Processing With No Success
The IRS has devoted significant resources to initiate studies to identify ways the IRS could
modernize its method for processing paper tax returns. In order to process paper tax returns,
                                     information on the tax return must be entered by hand into
  The IRS process to receive and     a computer by an IRS employee. This manual process of
   input paper-filed tax returns is  inputting information into a computer system converts the
      extremely labor intensive,     information into an electronic format, which then can be
     costly, and prone to errors.    processed electronically. The IRS has studied different
                                     ways to automate this labor-intensive and costly process.
However, none of these studies have moved beyond the concept stage, which leaves the IRS
expending significant resources ($190.6 million annually) to process paper-filed tax returns.
Current processing methods require the IRS to employ more than 5,000 data transcribers during
peak processing. For decades, the IRS has used an elaborate manual system to process its
U. S. Individual Income Tax Return (Form 1040) series of paper tax returns. Paper returns are:
   •   Received and opened in a mailroom, then sorted and batched by return type.
   •   Coded and edited to prepare the returns for transcription by ensuring all tax forms are
       attached, completed, and signed. Special codes are also applied as needed to perform
       specific computations of tax liabilities, and then a Document Locator Number is added.
   •   Transcribed into IRS computers.
   •   Corrected for taxpayer and IRS errors.
   •   Filed for storage.
Without a modernized paper submission processing system that converts paper tax returns into
an electronic format, the IRS will continue to have to use its labor-intensive, error-prone, and
costly system to process paper-filed tax returns. In addition, the manual transcription of
information from paper-filed tax returns into IRS computers has historically high error rates,
which causes costly rework in order to ensure returns are correctly processed and cause no harm
to taxpayers.




                                                                                          Page 5
                    Repeated Efforts to Modernize Paper Tax Return Processing
                    Have Been Unsuccessful; However, Actions Can Be Taken to
                      Increase Electronic Filing and Reduce Processing Costs



Significant resources have been expended developing modernization concepts
Since at least as far back as 1988, the IRS has attempted to develop a system to replace its
current paper tax return processing. However, none of these efforts have resulted in more than
conceptual visions. Figure 2 provides the progression of efforts conducted to modernize paper
submission processing.
        Figure 2: Efforts Initiated to Modernize Paper Submission Processing

    1988      Document Processing System – Developed to replace the IRS’                    Cancelled due to
              labor-intensive, paper-based tax return processing system using               cost overruns.
              imaging technology and Optical Character Recognition.

    2003      Submission Processing Visioning Taskforce – Established to                    Concept was
              develop a 2–6 year overarching vision for the future submission               approved to
              processing organization, processes, and systems.                              pursue funding
                                                                                            and then the
                                                                                            concept was
                                                                                            rolled into the
                                                                                            next proposal.

    2004      Modernized Paper Pipeline Processing Proposal – Proposal for                  Funding was
              a system capable of processing all IRS form types using the                   pursued but not
              latest Optical Character Recognition, Intelligent Character                   approved.
              Recognition, and Two-Dimensional Bar Code (2-D Barcode)
              recognition technology to capture information from the
              different submissions and convert that information into an
              electronic format.

    2007      Modernized Submission Processing Proposal – Current                           Funding request
              conceptual approach for an investment proposal to modernize                   was delayed.
              paper submission processing.
Source: Treasury Inspector General for Tax Administration research and interviews with IRS officials.

Modernized Submission Processing is the IRS’ latest concept
The IRS has completed work on the Modernized Submission Processing concept, its latest effort
for modernizing paper tax return processing. This concept provides for a system that will
automate the extraction of paper tax return information. The IRS projects that the system would
cost an estimated $66.2 million in development costs. After the system is fully implemented, the
recurring operation and maintenance costs are estimated to be $10.7 million per year. The IRS
                                                                                                        Page 6
                     Repeated Efforts to Modernize Paper Tax Return Processing
                     Have Been Unsuccessful; However, Actions Can Be Taken to
                       Increase Electronic Filing and Reduce Processing Costs



had planned to request funding for the concept in Fiscal Year (FY) 2010; however, no funding
was ultimately requested.
The concept provides for a paper processing system that will use optical scanning, automated
data extraction through Optical Character Recognition and 2-D Barcodes, modernized and legacy
data export, and return-of-record image archive for the Form 1040 series of returns. The initial
deployment was proposed for August 2011 at one of the three campuses that process paper-filed
individual income tax returns with deployment to the remaining campuses in August 2012.7 The
IRS anticipated that numerous benefits would be realized once fully implemented and estimated
that $67 million per year would be saved.
    •   $30 million from eliminating the Full-Time Equivalents8 required to process paper
        returns. This estimate is based on the labor and overhead costs for the function used to
        input a paper tax return.
    •   $16 million from eliminating the expense of maintaining the Service Center Recognition
        Image Processing System. The cost savings for this system is the annual maintenance
        costs. The Service Center Recognition Image Processing System will be retired once the
        new system is fully implemented.
    •   $21 million from eliminating the expenses for the filing and storage of paper tax returns.
        Files and storage savings were based on savings from the contract with the National
        Archives and Records Administration and the cost of IRS files operations.
The Modernized Submission Processing Solution Concept9 has been completed and was
previously ranked by IRS senior executives as one of the top new modernization priorities for the
FY 2010 investment portfolio. However, no funding was ultimately requested for FY 2010, and
it is no longer on the IRS’ Enterprise Prioritization list for funding in FY 2010 or FY 2011.

Actions Are Needed to Reduce Paper-Filed Tax Returns and/or
Convert Paper Tax Returns to an Electronic Format
While the IRS has not been able to move beyond the conceptual stage for modernizing paper
submission processing, there are actions that would reduce paper filings and/or convert paper tax
returns into an electronic format. These options can result in a significant increase in e-filing as
well as significant processing cost savings to the IRS. The options are:


7
  Processing of certain business returns was proposed for July 2013.
8
  A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For FY 2008, 1 Full-Time Equivalent is equal to 2,096 staff hours. For
FY 2009, 1 Full-Time Equivalent is equal to 2,088 staff hours.
9
  A Solution Concept is the first step toward the development of a modernization investment proposal and
documents the project scope, assumptions, timeline, risks, and the technical solution envisioned.
                                                                                                           Page 7
                     Repeated Efforts to Modernize Paper Tax Return Processing
                     Have Been Unsuccessful; However, Actions Can Be Taken to
                       Increase Electronic Filing and Reduce Processing Costs



     •   Mandate e-filing for paid preparers10 (this would require a change in current law).
     •   Convert residual paper returns into an electronic format.
Implementation of these options could result in a 26.9 percent increase in e-filing with
processing cost savings of $66.6 million annually as well as the ability to convert 13.2 million
tax returns11 into an electronic format.

Mandating e-file for paid preparers
A Federal mandate for paid preparers to e-file individual income tax returns would result in an
increase of 26.9 percent12 in e-filed tax returns and reduce IRS paper tax return processing costs
by $66.6 million annually.13 The majority of paid preparers are already familiar with operating
in an electronic environment. Most paid preparers who filed paper tax returns actually used an
electronic tax software preparation package and 70 percent also e-filed at least 1 tax return,
which indicates a familiarity with the electronic preparation and e-filing process. However,
while paid preparers are willing to e-file returns, some taxpayers are reluctant to do so, according
to IRS management. Analysis of IRS return processing data for Processing Year 2008 showed
that:
     •   26.4 million (40.8 percent) of the 64.8 million paper-filed Forms 1040 were filed by
         538,782 paid preparers; 21.6 million (81.5 percent)14 of these were prepared using an
         electronic tax software preparation package and then mailed to the IRS.
     •   378,056 (70 percent) of the 538,782 paid preparers also e-filed at least 1 tax return and, of
         the remaining preparers who did not e-file at least 1 tax return, 141,967 prepared a tax
         return using computer preparation software, which indicates they are familiar with the
         electronic preparation and e-filing process.




10
   For the purpose of this report, we defined a paid preparer as those who included a preparer Social Security
Number, Preparer Tax Identification Number, or Employer Identification Number and prepared six or more tax
returns. We excluded returns prepared by volunteer preparers.
11
   Prepared by taxpayers using tax preparation software then printed and mailed.
12
   Based on current IRS projections for Processing Year 2010.
13
   Processing cost savings are based on a 26.4 million increase in e-filing by paid preparers and the $2.52 difference
in the cost of processing a paper return and an e-filed return.
14
   Totals may not compute to those presented due to rounding.
                                                                                                               Page 8
                     Repeated Efforts to Modernize Paper Tax Return Processing
                     Have Been Unsuccessful; However, Actions Can Be Taken to
                       Increase Electronic Filing and Reduce Processing Costs



Figure 3 illustrates the methods used by paid preparers for paper return submissions.
         Figure 3: Methods Used by Paid Preparers to Prepare Paper Returns
                              (Processing Year 2008)

      Method Used by Paid Preparers to Prepare Paper Returns                      Returns           Percent

          Handwritten                                                                4,882,074        18.5%
          Computer                                                                 21,565,688         81.5%
      Total                                                                        26,447,762       100.0%
     Source: Treasury Inspector General for Tax Administration analysis of the IRS’ Individual Return
     Transaction File15 for Processing Year 2008.

Federal law currently prohibits the IRS from mandating e-filing
Federal law currently prohibits the IRS from requiring e-filing of individual income tax returns.
In order for a Federal mandate of individual e-filing to be implemented, the law would have to be
changed. Advisory Groups and the Government Accountability Office have reported to
Congress the benefits that could be achieved by mandating e-filing:
     •   The Electronic Tax Administration Advisory Committee (ETAAC) has advocated a
         Federal e-file mandate for several years. In its June 19, 2008, Annual Report to
         Congress,16 the ETAAC reported, “At this time, [the] ETAAC believes that all reasonable
         voluntary means have been exhausted with respect to encouraging preparers to e-file
         Individual Tax Returns, and it is time to take a stance by announcing an e-file mandate
         for tax return preparers.”
     •   The IRS Oversight Board agreed with the ETAAC’s recommendation in its Electronic
         Filing 2008 Annual Report to Congress.17 The Board supports the concept that Congress
         should lift the statutory prohibition on e-filing mandates for individual returns and give
         the IRS the discretion to implement such e-file mandates in the future as might be
         appropriate.
     •   The Government Accountability Office has also suggested an e-file mandate. Its
         2006 Filing Season report18 suggested that Congress should mandate e-filing by paid tax
         preparers meeting criteria such as filing a certain number of tax returns. The Government
         Accountability Office stated, “With the slowing growth rate in electronic filing, [the] IRS

15
   The Return Transaction File contains all edited, transcribed, and error-corrected data from the Form 1040 series
and related forms for the current processing year and 2 prior years.
16
   Electronic Tax Administration Advisory Committee: Annual Report to Congress, dated June 19, 2008.
17
   IRS Oversight Board: Electronic Filing 2008 Annual Report to Congress, dated January 2009.
18 Tax Administration: Most Filing Season Services Continue to Improve, but Opportunities Exist for Additional

Savings (GAO-07-27, dated November 2006).
                                                                                                              Page 9
                   Repeated Efforts to Modernize Paper Tax Return Processing
                   Have Been Unsuccessful; However, Actions Can Be Taken to
                     Increase Electronic Filing and Reduce Processing Costs



        is missing an opportunity to generate additional savings. Federal and [S]tate mandates
        for electronic filing have demonstrated success in increasing electronic filing; however,
        [the] IRS currently lacks the authority to mandate electronic filing for certain income tax
        returns such as individual returns filed by paid tax preparers. Using IRS estimates,
        savings from such a mandate could be on the order of $60 million per year.”
It should also be noted that the President’s FY 2010 budget request for the IRS contains a
legislative proposal to expand e-filing requirements for paid preparers. This proposal would
allow regulations to require that tax return preparers who file more than 100 returns (or any other
person who files more than 250 returns) e-file tax returns for individuals, estates, and trusts.
Many States are already mandating e-filing for paid preparers
In recent years, a number of States have adopted requirements mandating that certain paid
preparers must e-file all tax returns they prepare. As of November 2008, 20 (47 percent) of the
43 States that have a personal State income tax 19 have adopted some type of mandate that paid
preparers e-file State individual income tax returns. Some of these States have included volumes
of tax returns prepared when determining which specific preparers have to e-file. For example,
in 2004, the State of California mandated that tax preparers who prepared more than
100 California individual income tax returns during the previous year had to e-file all of their
clients’ current year returns. Also, in 2008, the State of Kansas passed legislation that required
paid preparers who prepare 50 or more returns per year to e-file not less than 90 percent of
returns eligible for e-filing. Figure 4 shows the States that currently have an e-file mandate for
paid preparers.




19
  Alaska, Florida, Nevada, South Dakota, Texas, Washington, and Wyoming do not have a personal State income
tax.
                                                                                                    Page 10
                    Repeated Efforts to Modernize Paper Tax Return Processing
                    Have Been Unsuccessful; However, Actions Can Be Taken to
                      Increase Electronic Filing and Reduce Processing Costs



            Figure 4: Map of States With E-file Mandates for Paid Preparers




                                                A s of N ovem ber 2008,
                                20 States M andated E lec tronic Filing for P aid P reparers




Source: Federation of Tax Administrators.

Significant processing cost savings could be achieved as a result of a paid preparer
mandate
A Federal mandate requiring paid preparers to e-file would provide significant processing cost
savings to the IRS and would accelerate the time it will take for the IRS to meet its 80 percent
e-filing goal. In addition, this would significantly reduce the volume of tax returns with
keypunch errors that would require correction. Figure 5 shows the expected e-filing increase of
an e-file mandate.




                                                                                               Page 11
                       Repeated Efforts to Modernize Paper Tax Return Processing
                       Have Been Unsuccessful; However, Actions Can Be Taken to
                         Increase Electronic Filing and Reduce Processing Costs



                 Figure 5: Projected E-Filing Increase From an E-file Mandate
                                                      Current                           With
                                                     Projection                        Mandate
             Projected Return Filings                  2010          Percentage         2010          Percentage
     Total Individual Returns Forms 1040/A/EZ       140,903,300                      140,903,300
     Total Paper Individual Returns                   42,592,900             30%       16,145,138             11%
     Total Electronic Individual Returns              98,310,400             70%     124,758,162              89%
           Source: IRS’ 2008 Calendar Year Return Projections for the United States and IRS Campuses
           (Document 6186) and Treasury Inspector General for Tax Administration analysis of the IRS’ Individual
           Return Transaction File for Processing Year 2008.

Mandating e-filing for paid preparers20 for individual income tax returns would result in a
26.9 percent increase21 in the number of e-filed tax returns and would reduce IRS paper tax return
processing costs by $66.6 million annually. Over 5 years, potential processing cost savings
could total approximately $333 million.

Legislative Recommendation
Recommendation 1: Consider mandating e-filing for all paid preparers.
           Management’s Response: The IRS agreed with this recommendation, which is
           currently under consideration by the Department of the Treasury and included in the
           President’s FY 2010 budget request. The initiative will require e-filing by tax preparers
           who file more than 100 tax returns in a calendar year. The proposal would be effective
           for tax returns required to be filed after December 31, 2010. Since the Department of the
           Treasury and the Administration have already considered the subject, the IRS does not
           plan to take further action with regard to this recommendation.

Converting residual paper returns into an electronic format
Electronic tax preparation software companies currently provide tax software packages that
enable State tax agencies to optically convert paper-filed tax returns into an electronic format


20
   The IRS requires paid preparers to sign the tax returns they prepare and to identify themselves using either their
Social Security Numbers or Preparer Tax Identification Numbers. If the preparer is self-employed or a member of a
firm, they are also to provide their Employer Identification Numbers. Our analysis identified returns that included a
preparer Social Security Number, Preparer Tax Identification Number, or Employer Identification Number and
excluded returns prepared by volunteer preparers. The analysis further limited paid preparers to those that prepared
six or more returns. This criterion was based on preparer identification issues reported in our report entitled
Inadequate Data on Paid Preparers Impedes Effective Oversight (Reference Number 2009-40-098, dated
July 14, 2009).
21
   Based on current IRS projections for Processing Year 2010.
                                                                                                            Page 12
                  Repeated Efforts to Modernize Paper Tax Return Processing
                  Have Been Unsuccessful; However, Actions Can Be Taken to
                    Increase Electronic Filing and Reduce Processing Costs



using Optical Character Recognition and 2-D Barcodes. While mandating e-filing for paid
preparers will significantly reduce the number of paper returns received by the IRS, it will not
eliminate them. In Calendar Year 2008, taxpayers submitted 36.5 million paper returns of which
13.2 million, or 36.2 percent, were prepared using an electronic tax preparation software
package. Yet these returns were mailed to the IRS as a paper tax return. The IRS will still need
to develop a process to convert these residual paper returns into an electronic format.
Updating the Modernized Submission Processing concept to include pursuing successful
processes followed by States that use scanning technology, including the use of Optical
Character Recognition and 2-D Barcodes, could provide the IRS with an option to convert
paper-filed tax returns into an electronic format, thereby reducing processing costs associated
with paper-filed tax returns.
Representatives from the State of California told us that they partnered with tax software
developers to provide a Scannable section called a “Scanband” on State personal income tax
returns. Currently, 24 states are using scanning technology including scanbands and bar codes to
improve the efficiency of tax return processing and in most of the States the bar code technology
captures all data on a State individual income tax return. Figure 6 shows the States that currently
use scanning technology.
            Figure 6: Map of States Using Scanband and/or 2-D Barcodes




                                         States Currently Using Scanning Technology




          Source: Federation of Tax Administrators.

                                                                                           Page 13
                 Repeated Efforts to Modernize Paper Tax Return Processing
                 Have Been Unsuccessful; However, Actions Can Be Taken to
                   Increase Electronic Filing and Reduce Processing Costs



The State of California Franchise Tax Board uses Optical Character Recognition to capture data
and convert paper State personal income tax returns into an electronic format. The Franchise
Tax Board uses high-speed scanners to take images of personal income tax returns and either
captures data from scannable forms or uses the return image to hand input the data. The
Franchise Tax Board’s imaging system cost approximately $12.8 million for nonrecurring
development costs and a total of $2.5 million in annual maintenance and operating costs. Last
year, the Franchise Tax Board processed approximately 7 million paper personal income tax
returns, of which 3.9 million (55.7 percent) used data captured from scannable forms. California
State tax return preparers use tax preparation software that creates a scannable section on the
face of the return called a “Scanband.” The Scanband includes all the tax return information that
is needed to process the return, such as name, address, income, and refund amount. The
remaining pages of the return contain the same data that were included in the Scanband. Figure
7 shows the scannable version of a California Resident Income Tax Return.




                                                                                         Page 14
                  Repeated Efforts to Modernize Paper Tax Return Processing
                  Have Been Unsuccessful; However, Actions Can Be Taken to
                    Increase Electronic Filing and Reduce Processing Costs



             Figure 7: California Resident Income Tax Return (Form 540)
                                    With Scanband




              Source: California Franchise Tax Board Publication 1095D 2008.

In another example, the New York State Department of Taxation and Finance captures tax return
data using 2-D Barcodes. This is a preferred option based on conversations we had with one
large e-file provider because it is less confusing to the taxpayer since it looks like a regular tax
return with a single cover sheet. A 2-D Barcode is a machine readable representation of
information encoded in a pattern of two dimensions. Returns that are prepared on a computer

                                                                                            Page 15
                 Repeated Efforts to Modernize Paper Tax Return Processing
                 Have Been Unsuccessful; However, Actions Can Be Taken to
                   Increase Electronic Filing and Reduce Processing Costs



and filed on paper have the data captured and printed in a 2-D Barcode capable of being read by
either hand-held or high-speed scanners. As of June 2009, the State of New York processed
39 percent of its paper Tax Year 2008 returns using 2-D Barcodes. Figure 8 shows the cover
sheet with 2-D Barcodes for the New York Resident Income Tax Return.
                       Figure 8: New York State Cover Sheet for
                       Form IT-201 Resident Income Tax Return




              Source: H&R Block.

These scanning technologies could be used in a rescaled version of the Modernized Submission
Processing concept to provide the IRS with options to further reduce processing costs associated
                                                                                         Page 16
                 Repeated Efforts to Modernize Paper Tax Return Processing
                 Have Been Unsuccessful; However, Actions Can Be Taken to
                   Increase Electronic Filing and Reduce Processing Costs



with residual paper-filed tax returns subsequent to an e-file mandate. In addition, to further
reduce implementation and equipment costs, the IRS should consider directing these taxpayers to
submit returns to a single return processing site. Implementing a process to convert paper-filed
tax returns that were prepared using a tax software package into an electronic format could result
in further reductions in paper-filed tax return processing costs.

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 2: Pursue the implementation of successful processes followed by States
that use scanning technology (Optical Character Recognition and 2-D Barcodes) to convert
paper-filed tax returns prepared by individuals using a tax preparation software package into an
electronic format.
       Management’s Response: The IRS agreed with this recommendation. The Wage
       and Investment Division will pursue the implementation of processes that use scanning
       technology (Optical Character Recognition and 2-D Barcodes). 2-D Barcodes will be a
       project proposal for the 2012 Modernization Vision and Strategy planning cycle. In the
       meantime, a new proposal will be submitted to enhance legacy systems with 2-D Barcode
       capabilities. Detailed requirements and timetables for that proposal are being developed,
       with a targeted implementation date of January 2011. It should be noted that there are
       budget and information systems prioritization constraints that may impact the IRS’ ability
       to implement this recommendation.




                                                                                          Page 17
                     Repeated Efforts to Modernize Paper Tax Return Processing
                     Have Been Unsuccessful; However, Actions Can Be Taken to
                       Increase Electronic Filing and Reduce Processing Costs



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of our review was to assess the IRS’ strategy to convert paper-filed
individual income tax returns into an electronic format. To accomplish our objective, we:
I.      Identified the process used to develop the strategy to convert paper-filed individual
        income tax returns into an electronic format.
II.     Identified the options the IRS considered and determined adequacy of testing of the
        various options, the accuracy of cost information included, and the method used to
        determine the potential benefits to be realized.
III.    Identified potential obstacles that could impact on the timely implementation of the
        strategy as well as IRS efforts to address the potential obstacles.
IV.     Identified processes used by State tax agencies to process paper-filed tax returns that
        could be used as a Best Practice.
V.      Determined the effect of an e-file mandate for paid preparers by analyzing
        90,472,107 individual income tax return records1 for Processing Year 2008 on the
        Individual Return Transaction File2 and identified 26,447,762 paper individual income
        tax returns prepared by paid preparers.




1
  To assess the reliability of computer-processed data, programmers in the Treasury Inspector General for Tax
Administration Office of Information Technology validated the extracted data, and we verified the appropriate
documentation. In addition, run-to run balancing was performed and the data in the selected fields were analyzed to
verify the validity of the data.
2
  The Return Transaction File contains all edited, transcribed, and error-corrected data from the U.S. Individual
Income Tax Returns (Form 1040 series) and related forms for the current processing year and 2 prior years.
                                                                                                          Page 18
                Repeated Efforts to Modernize Paper Tax Return Processing
                Have Been Unsuccessful; However, Actions Can Be Taken to
                  Increase Electronic Filing and Reduce Processing Costs



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell Martin, Director
Tina Parmer, Audit Manager
Steven Vandigriff, Lead Auditor
Karen Fulte, Senior Auditor




                                                                                    Page 19
                Repeated Efforts to Modernize Paper Tax Return Processing
                Have Been Unsuccessful; However, Actions Can Be Taken to
                  Increase Electronic Filing and Reduce Processing Costs



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Technology Officer OS:CTO
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Senior Operations Advisor, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                     Page 20
                     Repeated Efforts to Modernize Paper Tax Return Processing
                     Have Been Unsuccessful; However, Actions Can Be Taken to
                       Increase Electronic Filing and Reduce Processing Costs



                                                                                                 Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; return processing costs of $66.6 million on
    26,447,762 individual tax returns; $333 million in return processing costs over 5 years
    (see page 7). It should be noted that realization of this outcome measure is contingent upon
    enactment of legislation.

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify from the IRS Individual Return Transaction File1 a
universe of 26,447,762 paper individual income tax returns filed by paid preparers in Processing
Year 2008. Paid preparer returns were identified as those that included a preparer Social
Security Number, Preparer Tax Identification Number, or Employer Identification Number. It
excluded returns prepared by volunteer preparers, and we further limited paid preparers to those
that prepared six or more returns. IRS return processing costs $0.35 for an e-filed tax return
versus $2.87 for a paper-filed tax return. If the tax law is changed to mandate e-file for paid
preparers, processing cost savings of $333 million over 5 years could be put to better use.




1
 The Return Transaction File contains all edited, transcribed, and error-corrected data from the U.S. Individual
Income Tax Returns (Form 1040 series) and related forms for the current processing year and 2 prior years.
                                                                                                            Page 21
    Repeated Efforts to Modernize Paper Tax Return Processing
    Have Been Unsuccessful; However, Actions Can Be Taken to
      Increase Electronic Filing and Reduce Processing Costs



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 22
Repeated Efforts to Modernize Paper Tax Return Processing
Have Been Unsuccessful; However, Actions Can Be Taken to
  Increase Electronic Filing and Reduce Processing Costs




                                                     Page 23
Repeated Efforts to Modernize Paper Tax Return Processing
Have Been Unsuccessful; However, Actions Can Be Taken to
  Increase Electronic Filing and Reduce Processing Costs




                                                     Page 24
Repeated Efforts to Modernize Paper Tax Return Processing
Have Been Unsuccessful; However, Actions Can Be Taken to
  Increase Electronic Filing and Reduce Processing Costs




                                                     Page 25
